HHS/OIG-Audit--"Review of Funds Awarded Under the Title IV-E Independent Living Program to the West Virginia Department of Health and Human Resources, (A-03-92-00550)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Funds Awarded Under The Title IV-E Independent Living Program To The West Virginia Department of Health
and Human Resources," (A-03-92-00550)
July 8, 1992
Complete
Text of Report is available in PDF format (767 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The West Virginia Department of Health and Human Resources (DHHR) submitted annual applications for Independent Living
Program (ILP) funds each year since the program was established in Fiscal Year 1987 and was awarded over $1.6 million by
the Federal Government. Our report points out that DHHR misspent 37 percent of the awarded ILP funds, forfeited use of
48 percent of the funds, and will forfeit use of the remaining 15 percent of the awarded funds unless major improvements
are made in its accounting system. Also, DHHR had not established a cost center to control Federal expenditures under the
Title IV-E ILP, and had not reported a single Federal expenditure to the Administration for Children and Families during
the 5-year period.